FOR IMMEDIATE RELEASE                                                     April 26, 2013
Media Contact: 202-565-3908

              Fugitive Surrenders at Texas Border
            For Alleged Role in a Scheme to Defraud
          The Export-Import Bank of the United States
Washington DC – April 26, 2013. The Office of Inspector General (OIG) for the
Export-Import Bank of the United States (Ex-Im Bank) announced that on Tuesday,
April 23, 2013, fugitive Maria de Jesus Ortiz-Saldivar (Ortiz-Saldivar) surrendered at
the U.S. Border in El Paso, Texas and was arrested for her alleged role in a scheme to
defraud the Ex-Im Bank.

Ortiz-Saldivar, 47, a Mexican citizen and former accountant for Centro Oncolgico de
Norte S.A., a purported cancer treatment center in Ciudad Juarez, Chihuahua,
Mexico, was charged with bank fraud and wire fraud conspiracy in a federal
indictment unsealed on October 19, 2011, in the Western District of Texas. She was
arrested at the U.S. port of entry in El Paso, Texas by Ex-Im Bank OIG and Homeland
Security Investigations agents based on a federal arrest warrant issued subsequent
to her indictment.

According to the U.S. indictment and court documents, between January 2005 and
February 2009 Ortiz-Saldivar and her co-conspirators allegedly conspired to obtain
Ex-Im Bank guaranteed loans through lending banks by creating false loan
applications, false financial statements and other documents purportedly for the
purchase and export of U.S. goods into Mexico. Ortiz-Saldivar and her co-
conspirators allegedly devised a scheme to defraud the Ex-Im Bank and a lending
bank and to unlawfully enrich themselves by submitting false information to obtain
and to misappropriate loan proceeds. As a result of the alleged fraud, the
conspirators’ loans defaulted, causing the Ex-Im Bank to pay claims to lending banks
on a loss of over $2.5 million.

The charges and allegations contained in the indictment are merely accusations and
the defendants are presumed innocent unless and until proven guilty.

Law enforcement agents continue to seek the arrest and extradition of the following
fugitives in Mexico who are related to this investigation: Gilberto Ruiz, Sergio
Acosta-Camacho, Adrian Rascon-Chavez, Genoveva Fontes de Rascon, Jorge Valdez-
Cota, Veronica Iglesias-Lucero, Pedro Ruvalcaba, and Estansilao Reyes-Chavarria.

The case is being prosecuted by the Criminal Division’s Fraud Section, Department
of Justice, and the U.S. Attorney’s Office, Western District of Texas, El Paso Division.


                   811 Vermont Avenue, NW Washington, D.C. 20571
The case was investigated by the Ex-Im Bank Office of Inspector General; Homeland
Security Investigations, El Paso; U.S. Postal Inspection Service in Washington, D.C;
and IRS Criminal Investigations, Washington, DC. Substantial assistance was
provided by the U.S. Marshals Service in El Paso, TX.

Ex-Im Bank is an independent federal agency that helps create and maintain U.S.
jobs by filling gaps in private export financing. Ex-Im Bank provides a variety of
financing mechanisms to help foreign buyers purchase U.S. goods and services.

Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations. Additional
information about the OIG can be found at www.exim.gov/oig. Complaints and
reports of waste, fraud, and abuse related to Ex-Im Bank programs and operations
can be reported to the OIG hotline at 888-OIG-EXIM (888-644-3946) or via email at
IGhotline@exim.gov.




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
